No. 20-5344

In the Supreme Court of the United States
CHRISTOPHER TAYLOR, PETITIO ER,
V.

ILLINOIS, RESPONDENT.

On Petition for a Writ of Certiorari
to the Illinois Appellate Court

CERTIFICATE OF FILING AND SERVICE
The undersigned, a member of the Bar of this Court, certifies that, in
compliance with Rules 15.3, 29, and 33.2, she caused to be filed an original and ten
copies of respondent's Brief in Opposition with the Clerk, Supreme Court of the
United States, Washington, DC 20543, and also caused to be served one copy of the
same on the following:
Douglas Robert Hoff
Office of the State Appellate Defender
First Judicial District
203 North LaSalle Street, 24th Floor
Chicago, Illinois 60601
(312) 814-5472
douglas. hoff@osad.state.il. us
by depositing it in the United States mail box at 100 West Randolph Street,
Chicago, Illinois 60601 , on this 7th day of January, 2021, first-class postage prepaid
and addressed. An electronic version of the document was electronically filed and
served via e-mail to the address indicated above.
All parties required to be served have bee n serveq.

Counsel for Responden

